HHS/OIG, Audit -"Audit of King City Rehab&Living Center's Medicaid Cost Report for Fiscal Year Ended June
30, 2000,"(A-10-03-00014)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of King City Rehab & Living
Center's Medicaid Cost Report for Fiscal Year Ended June 30, 2000," (A-10-03-00014)
October 18, 2004
Complete
Text of Report is available in PDF format (1.41 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
King City Rehab & Living Center (King City) is a nursing facility in Tigard, Oregon operated by Avamere Health Services,
Inc. (Avamere).  For the fiscal year ended June 30, 2000 (FY 2000), Avamere included $62,394 on the Medicaid cost
report for King City that was unallowable under Federal and State requirements.  These unallowable costs were claimed
because Avamere did not have adequate policies, procedures, and controls to ensure compliance with Federal and State Medicaid
program requirements.  We recommended that Avamere (1) submit a revised FY 2000 Medicaid cost report, and (2) improve
existing policies, procedures, and controls to ensure that costs on the Medicaid cost report are allowable, classified
in the proper accounts, and related to patient care.  Avamere concurred with $46,974 of the $62,394 considered unallowable.  Also,
Avamere stated that it did not plan to file an amended cost report but instead would send a copy of the final adjustments
to the State.